<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
  AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION,

          AND RELATED  AGENCIES APPROPRIATIONS FOR 2004

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION
                                ________
     SUBCOMMITTEE ON AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG 
                  ADMINISTRATION, AND RELATED AGENCIES

                     HENRY BONILLA, Texas, Chairman

 JAMES T. WALSH, New York            MARCY KAPTUR, Ohio
 JACK KINGSTON, Georgia              ROSA L. DeLAURO, Connecticut
 GEORGE R. NETHERCUTT, Jr.,          MAURICE D. HINCHEY, New York
Washington                           SAM FARR, California
 TOM LATHAM, Iowa                    ALLEN BOYD, Florida          
 JO ANN EMERSON, Missouri
 VIRGIL H. GOODE, Jr., Virginia
 RAY LaHOOD, Illinois    
                         

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

   Henry E. Moore, Martin P. Delgado, Maureen Holohan, and Joanne L. 
                        Perdue, Staff Assistants
                                ________
                                 PART 1

                 FY 2004 REVISED EXPLANATORY NOTES 
                                                                                             

        Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 86-593                     WASHINGTON : 2003




                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 FRANK R. WOLF, Virginia             MARTIN OLAV SABO, Minnesota
 JIM KOLBE, Arizona                  STENY H. HOYER, Maryland
 JAMES T. WALSH, New York            ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina   MARCY KAPTUR, Ohio
 DAVID L. HOBSON, Ohio               PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma     NINA M. LOWEY, New York  
 HENRY BONILLA, Texas                JOSE E. SERRANO, New York
 JOE KNOLLENBERG, Michigan           ROSA L DeLAURO, Connecticut
 JACK KINGSTON, Georgia              JAMES P. MORAN, Virginia
 RODNEY P. FRELINGHUYSEN, New Jersey JOHN W. OLVER, Massachusetts
 ROGER F. WICKER, Mississippi        ED PASTOR, Arizona
 GEORGE R. NETHERCUTT, Jr.,          DAVID E. PRICE, North Carolina   
  Washington                         CHET EDWARDS, Texas                                           
  RANDY ``DUKE'' CUNNINGHAM,         ROBERT E. ``BUD'' CRAMER, Jr., 
  California                           Alabama
  TODD TIAHRT, Kansas                PATRICK J. KENNEDY, Rhode Island
  ZACH WAMP, Tennessee               JAMES E. CLYBURN, South Carolina
  TOM LATHAM, Iowa                   MAURICE D. HINCHEY, New York   
  ANNE M. NORTHUP, Kentucky          LUCILLE ROYBAL-ALLARD, California
  ROBERT B. ADERHOLT, Alabama        SAM FARR, California
  JO ANN EMERSON, Missouri           JESSE L. JACKSON, Jr., Illinois
  KAY GRANGER, Texas                 CAROLYN C. KILPATRICK, Michigan
 JOHN E. PETERSON, Pennsylvania      ALLEN BOYD, Florida
 VIRGIL H. GOODE, Jr., Virginia      CHAKA FATTAH, Pennsylvania
 JOHN T. DOOLITTLE, California       STEVEN R. ROTHMAN, New Jersey
 RAY LaHOOD, Illinois                SANFORD D. BISHOP, Jr. Georgia 
 JOHN E. SWEENEY, New York           MARION BERRY, Arkansas                               
 DAVID VITTER, Louisiana             
 DON SHERWOOD, Pennsylvania         
 DAVE WELDON, Florida 
 MICHEAL K. SIMPSON, Idaho
 JOHN ABNEY CULBERSON, Texas 
 MARK STEVEN KIRK, Illinois 
 ANDER CRENSHAW, Florida 



 
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

                [GRAPHICS NOT AVAILBLE IN TIFF FORMAT]






</pre></body></html>
